l

No.

IN THE
SUPREME COURT OF THE UNITED STATES
ROY L. RAMBO, JR
Petitioner,
V.

ADMIN. EAST JERSEY STATE PRISON, ET ALM
Respondents.
PROOF OF SERVICE
I

Rov L. Rambo. Jr.
______ , do swear or declare that on this date,
January 8. 2021
., as required by Supreme Court Rule 29 I have served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS,
PETITION FOR A WRIT OF CERTIORARI, and supporting documents on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those are as follows:
Dit Mosco, Assistant Prosecutor
Warren County Prosecutor’s Office
413 Second Street
Belvidere, New Jersey 07823
I declare under penalty of perjury that the foregoing is true and correct.
Executed on:

January 8. 2021
)

(Signature)

